PROOF OF SERVICE
I, PHILLIP A. BENJAMIN, pursuant to Supreme Court Rules 29.2 and
29.5(c), do hereby swear and declare, under penalties of perjury, that I am an
inmate confined in a state correctional institution, that I am not currently
represented by any attorney, and that I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party required to be served, or their attorney, as noted
below, by depositing an envelope contained the aforesaid document(s) into the
correctional institution’s internal mail system for outgoing legal mail, first class
postage prepaid, for delivery via U.S. Mail, by placing same into the hands of
institutional officials, on this
day /Uoug/n D«
2020.
Parties/Persons served:
SECRETARY, DEPT. OF CORR., Respondent, The Attorney General of Florida,
Suite PL-01, The Capitol, Tallahassee, Florida 32399-1050
UNDER PENALTIES OF PERJURE, I declare that the foregoing is true
and correct. Executed this
day of
, 2020, by:
/s/
PHILLIP A. BENJAMIN, DC# '23536
Petitioner, pro se
Century Correctional Institution
400 Tedder Road
Century, Florida 32535

31

